2311 Douglas Street

; E-Mail Address:
Omaha, Nebraska 68102-1214 Legal Briefs

contact@cocklelegalbriefs.com
1-800-225-6964
(402) 342-2831

Fax: (402) 342-4850

Web Site
www.cocklelegalbriefs.com

No. 19-518

COLORADO DEPARTMENT OF STATE,
Petitioner,
v.
MICHEAL BACA, et al.,
Respondents.

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the BRIEF FOR SOUTH
DAKOTA AND MISSISSIPPI, MARYLAND, INDIANA, NEVADA, ALASKA, NEBRASKA,
LOUISIANA, OHIO, OKLAHOMA, ARIZONA, ILLINOIS, DELAWARE, NEW MEXICO,
CALIFORNIA, VIRGINIA, SOUTH CAROLINA, WEST VIRGINIA, NORTH DAKOTA,
RHODE ISLAND, MONTANA AND TENNESSEE AS AMICI CURIAE IN SUPPORT OF
PETITIONER in the above entitled case complies with the typeface requirement of Supreme Court
Rule 33.1(b), being prepared in New Century Schoolbook 12 point for the text and 10 point for the

footnotes, and this brief contains 4340 words, excluding the parts that are exempted by Supreme
Court Rule 33.1(d), as needed.

Subscribed and sworn to before me this 20th day of November, 2019.
Jam duly authorized under the laws of the State of Nebraska to administer oaths.

PATRICIA BILLOTTE

General Notary . . Chi,
State of Nebraska . ,
My Commission Expires Nov 24, 2020 a

Notary Public Affiant

 

 

39030
